              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report

Beryllium Controls at the
Oak Ridge National Laboratory




DOE/IG-0737                                 September 2006
                                Department of Energy
                                     Washington, 3 C 20585




MEMORANDUM FOR THE,SECRETARY
                             <-?LL~ ,;?& [.J,Z          .,yj>
FROM:                     ~ r e g o r y ' k Friedman
                                            .
                          Inspector General

SUBJECT:                  INFORMATIOIV: Audit Report on "Bery lliuni Controls at the
                          Oak Ridge National Laboratory"

BACKGROUND
-



The Department of Energy (Department) has a long history of beryllium use due to the
element's broad application in nuclear weaporl and redctor operations and processes.
Exposure to beryllium can cause beryllium sensitization or even (:k~rc.nic.Beryllium
Disease, which is an often debilitating, and sometinles fatal, lung condition. Thus, the1.e
1s a recognized connection between beryllium expdsure and the general health and
welfare of Department of Energy employees. The importance of wol-ker health and
safety has been of primary concern to the Department for a number of years, with
significant emphasis during your term as Secretary of Energy.

Since the 1950qs,the Department's Oak Ridge National Laboratory (OKNL) has managed
building 9201 -2, located at the Y-12 National Security Complex (Y-12) in Oak Ridge,
Tennessee 'I'hc work conducted in the building involved the use of machine shop
cquipment such as lathes, milling machines, forklifts, hand tools and metal cabinets. In
December 2001, an inventory in building 9201-2 detected the presence of beryllium.
Nearly three years later in September 2004, ORNL began relocating operations from
building 920 I -2 to the Laboratory itself. Some of the equipment associated with the
work conducted in 9201-2 was moved to ORNL and other locations as part of this
process.

The Office of Inspector General received an allegation regarding the mishandling of
beryllium contaminated equipment located in building 9201-2. In response, we initiated
an audit to determinc the validity of the allegation, as well as to analyze internal controls
related to beryllium.

RESULTS OF AUDIT

Our review disclosed that the Laboratory did not properly manage activities relating to
beryllium contamination. More specifically, we observed:

       Beryllium contaminated equipment, some of which was contaminated above the
       release limit established in Federal regulations, was transferred from building
       9201-2 to non-beryllium areas such as buildings 7625 and 7039 at the Laboratory;
       the Depai-tmcnt's Spallation Ncuti-on Source PI-qject;and, Theragenics
       Coi-por;~tion,which was a privatc entity located at thc Dclx~rtment'sEast
       Tcnncsscc 71'cchnology Park sitc:
                                  @ ; c ,I,
                                          1.8   I   8  I..;,: ,,.,
                                                         , I , .,,,,,LL,.
      6    13mployccs associaicd wil.11 moving and wol-king with (lie ecluipment were not
           always adequate1 y protected fi-om possible bei-yllium exposurc and were not fully
           idcntified, formally notified and offered the option of a incdical evaluation;

           Equipment released from 920 1-2 was not labeled in accordancc with the
           Laboratory's be]-yllium contamination management procedure; and,

           Building 9201-3,was not posted as a potential beryllium contamination area and
           access controls were not established; although not required, the Department
           considers this a good management practice.

We determined that the Laboratory had not fully implemented its own beryllium internal
conti-01procedures, nor had it adopted other sound business practices relating to
beryllium cxposurc. As a result, the potential for employee exposure to beryllium was
not minimized.

W h ~ l eworker safety was the focus of our audit, we also questioned the al1ow:ibility of
ceitain costs associated with moving the contaminated equipment. Accordingly, we
made several reconlmendations to address these issues. During the course of our audit,
the Department recognized the significance of the issues identified by the audit and
initiated several corrective actions.

MANAGEMENT COMMENTS

Management concurred with our recommendations and began implementing corrective
actions. Management's comments wei-e responsive to the recommendations.

Attachment

cc:       Deputy Secretary
          Under Secretary for Science
          Administrator, National Nuclear Security Administration
          Chief of Staff
          Manager, Oak Ridge Site Office
          Director, Policy and Internal Controls Management, NA-66
REPORT ON BERYLLIUM CONTROLS AT THE OAK RIDGE NATIONAL
LABORATORY


TABLE OF
CONTENTS


           Beryllium Controls at the Oak Ridge National Laboratory


           Details of Finding ........................................................................................1

           Recommendations and Comments ..............................................................5


           Appendices


           1. Other Matters .........................................................................................6

           2. Objective, Scope, and Methodology......................................................7

           3. Related Audit Reports............................................................................8

           4. Management Comments ........................................................................9
BERYLLIUM CONTROLS AT THE OAK RIDGE NATIONAL
LABORATORY

Beryllium             The Oak Ridge National Laboratory (Laboratory) did not
Contamination         properly manage activities related to beryllium
Management            contaminated equipment at building 9201-2. In particular,
                      beryllium contaminated equipment was transferred to non-
                      beryllium areas; employees working with the contaminated
                      equipment were not fully identified and notified; and
                      transferred equipment was not labeled appropriately. In
                      addition, we observed that building 9201-2 was not posted
                      as a potential beryllium contamination area and access
                      controls were not established.

                                         Equipment Transfers

                      In December 2001, an inventory in building 9201-2
                      detected the presence of beryllium. Subsequently,
                      beryllium contaminated equipment, some which was
                      contaminated above the Department of Energy
                      (Department's) release limit, was transferred without being
                      sampled for beryllium contamination. Specifically,
                      equipment was:

                         •   Transferred from building 9201-2 to buildings 7625
                             and 7039 at the Laboratory;

                         •   Moved to the Department's Spallation Neutron
                             Source Project; and,

                         •   Loaned to Theragenics Corporation, which was a
                             private entity located at the Department's East
                             Tennessee Technology Park.

                                          Employee Exposure

                      Employees involved in operating and moving the
                      contaminated equipment were not always adequately
                      protected from possible beryllium exposure and were not
                      fully identified, formally notified or provided the option of
                      a medical evaluation. Specifically, individuals were
                      allowed to enter and work in building 9201-2 without
                      protective equipment despite beryllium surface
                      contamination being reported as high as 30 micrograms per
                      100 cm2. This contamination level is well above the 3
                      micrograms at which personal protective equipment is
                      required by the Code of Federal Regulations.



________________________________________________________________
Page 1                                            Details of Finding
                      Additionally, employees associated with operating and
                      moving the contaminated equipment were not fully
                      identified, formally notified, and offered the option of a
                      medical evaluation regarding potential beryllium exposure.
                      In particular, we were told and management confirmed that
                      not all of the employees potentially exposed to beryllium
                      had been identified and offered a medical evaluation. This
                      is significant since there is no correlation between the
                      amount of beryllium an individual is exposed to and the
                      likelihood of becoming beryllium sensitized or contracting
                      Chronic Beryllium Disease.

                      During the course of the audit, the Department and its
                      operating contractor recognized the urgency of addressing
                      this situation and began developing a list of the employees
                      who were potentially exposed to beryllium. Once this list
                      is completed, the Department planned to perform validation
                      activities; formally notify affected individuals; and, offer
                      them the opportunity for a medical evaluation.

                                         Equipment Labeling

                      Equipment released from building 9201-2 was not labeled
                      in accordance with Laboratory procedures. The Laboratory
                      developed a Chronic Beryllium Disease Prevention
                      Program to protect employees from health effects related to
                      beryllium exposure which included labeling contaminated
                      equipment after cleaning and prior to movement to a non-
                      beryllium area. During the audit, the Department reported
                      that all but one piece of equipment transferred from
                      building 9201-2 was labeled properly. However, during a
                      tour of building 7625 on May 4, 2006, we observed and
                      Laboratory personnel confirmed that labels were not
                      affixed to any of the equipment transferred from building
                      9201-2 to building 7625.

                                          Beryllium Postings

                      The Laboratory also had not posted building 9201-2 as a
                      potential beryllium contamination area and access controls
                      were not established to prevent possible beryllium
                      exposures. Although not required by regulations, we noted
                      that at least one other Oak Ridge Reservation site had
                      adopted a posting requirement as a good business practice.
                      Specifically, the Y-12 National Security Complex requires
                      that areas be posted if surface contamination levels exceed

________________________________________________________________
Page 2                                            Details of Finding
                      0.2 micrograms per 100 cm2, a contamination level less
                      than existed in building 9201-2. Further, employees,
                      including those known to be diagnosed with sensitivity to
                      beryllium or Chronic Beryllium Disease, must be notified
                      that the area is posted because of beryllium contamination.

                      On April 24, 2006, we toured building 9201-2 to determine
                      the locations of beryllium contaminated equipment and to
                      assess whether or not warning signs were present. We
                      observed that the only warning signs present were those
                      that had been placed directly on the equipment. There were
                      no indications of the presence of beryllium at any building
                      or area entrances, although the Laboratory reported one
                      piece of equipment with contamination levels at 150 times
                      greater than the Department's release limit. During the
                      audit, the Department agreed that such warnings and
                      controls constituted good management practices and
                      instituted additional controls.

Beryllium             We determined that the Laboratory did not fully
Contamination         implement the internal control procedures called for in its
Controls              Chronic Beryllium Disease Prevention Program, and had
                      not adopted other sound business practices to prevent
                      beryllium exposure.

                                      Implementation of Controls

                      Although controls were in place to ensure the appropriate
                      handling of beryllium, these policies were not fully
                      implemented. For example, according to Laboratory
                      policy, the transfer of equipment is not allowed if the
                      contamination levels exceed the Department release limit
                      as defined in the Code of Federal Regulations. However,
                      as noted previously, equipment was transferred to non-
                      beryllium areas in September 2004 that was above the
                      limit.

                      Additionally, the Laboratory did not ensure that the use of
                      personal protective equipment was consistently applied
                      throughout the equipment cleaning process. For example,
                      not all of the individuals present during cleaning activities
                      were required to wear protective equipment. Further,
                      although employees who cleaned the equipment were




________________________________________________________________
Page 3                                            Details of Finding
                      initially required to wear a respirator, they were given the
                      opportunity to work without the respirator after the first
                      few cleaning sessions based on two personal air monitoring
                      samples showing no exposure.

                      Similarly, the Laboratory did not follow its existing
                      procedures for:

                         •   Identifying, notifying and offering medical
                             evaluation to employees who were potentially
                             exposed to beryllium; or,

                         •   Labeling contaminated equipment.

                      During the audit, the Department indicated that an
                      independent validation of the actions taken in building
                      9201-2 and of the Laboratory's Chronic Beryllium Disease
                      Prevention Program was initiated.

                                       Enhancements of Controls

                      While the Laboratory had established internal controls for
                      managing beryllium contamination, we noted areas where
                      controls could be strengthened to further ensure the safety
                      of Department employees. For example, the Laboratory
                      had not adopted a posting requirement for beryllium
                      contaminated areas similar to the requirement established
                      by the Y-12 Nuclear Security Complex. Although not
                      required by regulation, implementing procedures for
                      controlling access to areas where beryllium is present
                      would greatly reduce the risk of exposure to employees.

Beryllium             As a result of the Laboratory not properly managing
Contamination         activities relating to beryllium contamination, employees'
Effects               exposure to beryllium was not minimized. This is
                      significant since research has shown that once an individual
                      is exposed to beryllium, they carry a lifelong risk of
                      developing beryllium sensitization or Chronic Beryllium
                      Disease, even if the exposure amount was small or if the
                      individual is no longer exposed.

                      In addition, we questioned the allowability of the costs
                      associated with moving the contaminated equipment
                      unnecessarily. Specifically, the Department incurred over
                      $27,000 due to moving beryllium contaminated equipment
                      to a non-beryllium area and subsequently moving that

________________________________________________________________
Page 4                                            Details of Finding
                     equipment back to its original location. Had the Laboratory
                     properly managed activities related to beryllium
                     contamination, the initial movement of the equipment from
                     building 9201-2 would not have occurred; thus, the
                     equipment would not have been moved twice.


RECOMMENDATIONS      In order to minimize Department employees' exposure to
                     potential beryllium contamination, we recommend that the
                     Oak Ridge Office Contracting Officer direct the Laboratory
                     to:

                        1. Complete the beryllium procedure review and
                           implement proper procedures for identifying,
                           cleaning, and labeling equipment that is potentially
                           contaminated with beryllium;

                        2. Adopt enhanced procedures for the future control of
                           beryllium exposure including adoption of
                           procedures to ensure that warnings are posted and
                           access controls are established for buildings which
                           contain beryllium contamination;

                        3. Complete actions to fully identify, formally notify,
                           and offer the option of a medical evaluation to
                           employees who were potentially exposed to
                           beryllium; and,

                        4. Identify equipment transferred from building
                           9201-2 and ensure that the equipment is properly
                           identified and labeled.

                     We also recommend that the Oak Ridge Office Contracting
                     Officer determine the allowability of the costs associated
                     with moving beryllium contaminated equipment from
                     9201-2 and back to 9201-2.


MANAGEMENT           Management concurred with our recommendations and
REACTION             began implementing corrective actions.


AUDITOR COMMENTS     Management's comments were responsive to the
                     recommendations.



________________________________________________________________
Page 5                              Recommendations and Comments
Appendix 1


                                 OTHER MATTERS


The Code of Federal Regulations, Title 10, Part 850, mandates that personal protective
equipment be worn when beryllium surface contamination levels exceed 3 micrograms
per 100 cm2. However, it does not require that areas where these items are located be
posted to warn individuals of the potential hazards or inform them that protective
equipment is required. In order to ensure full implementation of this requirement, we
suggest that the Department of Energy consider establishing a requirement to post areas
where surface contamination levels exceed 3 micrograms per 100 cm2. This practice
would warn employees that the area is contaminated with beryllium as well as that
personal protective equipment is required for access.




________________________________________________________________
Page 6                                              Other Matters
Appendix 2

OBJECTIVE             The objective of this audit was to determine the validity
                      of the allegation regarding the mishandling of beryllium
                      contaminated equipment located in building 9201-2, as well
                      as to analyze internal controls related to beryllium.


SCOPE                 The audit was performed between April 2006 and
                      August 2006.


METHODOLOGY           To accomplish our audit objective, we:

                         •   Reviewed laws, regulations, contractual
                             requirements, policies and procedures relevant to
                             the management of beryllium contamination;

                         •   Analyzed Laboratory documentation regarding its
                             handling of beryllium contaminated equipment;

                         •   Toured various Laboratory buildings to observe the
                             condition of the facilities and equipment; and,

                         •   Held discussions with officials from the Oak Ridge
                             Office, Laboratory, and Y-12 concerning the
                             management of beryllium contamination.

                      The audit was performed in accordance with generally
                      accepted Government auditing standards for performance
                      audits and included tests of internal controls and
                      compliance with laws and regulations to the extent
                      necessary to satisfy the audit objective. Specifically, we
                      tested controls with respect to the management of beryllium
                      contamination at the Laboratory. Because our review was
                      limited, it would not necessarily have disclosed all internal
                      control deficiencies that may have existed at the time of our
                      audit. We did not rely on computer-processed data to
                      accomplish our audit objective. Finally, we assessed the
                      Department's compliance with the Government
                      Performance and Results Act of 1993. While there were no
                      specific performance measures established relating to
                      beryllium, measures were in place regarding environment,
                      safety and health issues that would apply to beryllium.

                      Management waived the exit conference.




________________________________________________________________
Page 7                             Objective, Scope, and Methodology
Appendix 3


                           RELATED AUDIT REPORTS

  •   The report on Implementation of the Department of Energy's Beryllium-
      Associated Worker Registry (DOE/IG-0726, April 2006), showed that the
      Department of Energy had not: maintained data completeness or accuracy in the
      worker registry; used the registry to evaluate health effects of beryllium exposure,
      nor used the registry as envisioned to examine the prevalence of beryllium
      disease. Thus, the audit results showed that program implementation did not meet
      expectations.

  •   The report on Beryllium Oxide Operations at the Y-12 National Security Complex
      (DOE/IG-0595, April 2003), disclosed a number of inefficiencies in Y-12's
      beryllium oxide operations. Specifically, operations were spread across the Y-12
      site, and in some cases, were co-located with other Y-12 operations. In addition,
      manufacturing equipment and facilities were outdated, which increased
      manufacturing time and costs, and exacerbated health hazards associated with the
      use of beryllium.




________________________________________________________________
Page 8                                      Related Audit Reports
Appendix 4




Page 9       Management Comments
                                                             IG Report No. DOE/IG-0737

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                   http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
